                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

Case Number: 113030012                                                                                  Page 1 of 1




                 We opened an investigation on a company1 with multiple SBIR awards 2 pursuant to a
         proactive review. 3 During our review, we learned that the former NSF Program Officer4 in
         charge of the award was now a board member at the company, and had not mentioned any
         relationship with the company in annual ethics disclosures. 5

                 A review of financial documentation6 determined that the former NSF employee did not
         receive impermissible benefits from the company while at NSF and is not currently on the
         company payroll. We likewise determined that the third-party investments in the awardee's
         business were proper.

                 The investigative issues were not substantiated. Accordingly, this case is closed with no
         further investigation necessary.




                 assumed the role as Program Officer for the                            award during the end of the Phase
         I award and continued this role until his departure from NSF in June of2012.     assumed a role on the Board of
         Directors for                                          of2012.
         6




NSF OIG Form 2 (11102)
